HHS/OIG, Audit -"Review of Ohios Medicaid Disproportionate Share Hospital Payments,"(A-05-01-00058)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Ohios Medicaid Disproportionate Share Hospital Payments," (A-05-01-00058)
June 17, 2004
Complete
Text of Report is available in PDF format (482 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report points out that Ohios State plan with regard to the disproportionate share hospital program
was in compliance with Federal requirements and CMS policies, with the exception of the method for calculating the Medicaid
inpatient utilization rate for institutions for mental diseases (IMDs).  Contrary to these requirements and policies,
Ohio included the 22- to 64-year-old patient age group in the Medicaid inpatient utilization rate calculation for its State-owned
IMDs.  As a result, Ohio made approximately $80 million ($47 million Federal share) in DSH payments to seven IMDs
that did not meet the Medicaid inpatient utilization rate requirements.  We recommended that Ohio revise its State
plan to exclude the 22- to 64-year-old age group in calculating the Medicaid IMD inpatient utilization rate for future
DSH reporting periods, and refund the $47 million (Federal share) of payments made to seven State-owned IMDs that did not
meet Medicaid inpatient utilization rate requirements.